2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OQCKLE

Le g al Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-

INSTITUTE FOR FREE SPEECH,
Petitioner,
Vv.
XAVIER BECERRA,
Attorney General of California,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ALAN GURA ALLEN DICKERSON
GURA PLLC Counsel of Record
916 Prince Street, Ste. 107 ZAC MORGAN
Alexandria, Virginia 22314 INSTITUTE FOR FREE SPEECH
P: (703) 835-9085 124 S. West Street, Ste. 201
alan@guraplle.com Alexandria, Virginia 22314
P: (703) 894-6800
adickerson@ifs.org
Counsel for Petitioner

Subscribed and sworn to before me this 18th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

scl 2 E Cll Qudeow-h. le

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38807
SERVICE LIST

Xavier Becerra, Attorney General

clo

Jose A. Zelidon-Zepeda

Deputy Attorney General

Office of the California Attorney General
455 Golden Gate Avenue

San Francisco, CA 94102

916-210-6276
Jose.ZelidonZepeda@doj.ca.gov
